                                     SOCIAL          SECURITY
MEMORANDUM
Date:   February   14,   2001                                                  Refer To:   31045-23-126

To:     William A. Halter
        Acting Commissioner
         of Social Security


From:   Inspector General



Subject:The Social Security Administration's   Internet Data Collection Activities


        The Omnibus Consolidated Appropriations Act (Public Law 106-554) mandates that the
        Office of the Inspector General provide to the Congress information relating to the
        Agency's activities regarding -

        1 the collection or review of singular data, or the creation of aggregate lists that
            include personally identifiable information, about individuals who access any Internet
            site of the department or agency; and

        2. entering into agreements with third parties, including other governmental agencies,
           to collect, review, or obtain aggregate lists or singular data containing personally
           identifiable information relating to any individual's access or viewing habits for
           governmental and non-governmental Internet sites.

        The attached report, The Social Security Administration's Internet Data Collection
        Activities, responds to these requirements and is due to the Congress by February 19,
        2001. If you have any questions or would like to discuss the contents of this document,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




        Attachment
                                 Office of the Inspector General

                                      February 20, 2001




The Honorable Ernest J. Istook, Jr .
Chairman, Subcommittee on Treasury , Postal Service,
 and General Government
Committee on Appropriations
House of Representatives
Washington, D.C. 20515

Dear Mr. Istook:

As required by the Omnibus Consolidated Appropriations Act (Public Law 106-554), the Social
Security Administration's Office of the Inspector General is pleased to provide you with the
requested information relating to-

1 the collection or review of singular data, or the creation of aggregatelists that include
    personally identifiable information, about individuals who accessany Internet site of the
    department or agency; and

2   entering into agreementswith third parties, including other governmental agencies, to collect,
    review, or obtain aggregate lists or singular data containing personally identifiable information
    relating to any individual's accessor viewing habits for governmental and non-governmental
    Internet sites.

In summary, we found that: SSA does collect personal identifiable information about certain web
site users, only with the consent of such user, through the use of session cookies and completion
of forms. SSA has entered into agreementswith third parties that collect and maintain personal
identifiable information, but they do not disclose these third party agreementsto web site users.
The enclosed report "The Social Security Administration's Internet Data Collection Activities"
provides the full fmdings of our review. We have sent identical letters to the Honorable Steny
Hoyer, Ranking Minority Member of your Subcommittee and the Chairman and the Ranking
Minority Member of the SenateSubcommittee on Treasury , Postal Service, and General
Government.




                SOCIAL SECURITY ADMINISTRATION          BAL TIMORE MD 21235-0001
Page 2-   The Honorable Ernest J. Istook, Jr.

If you have any questions or would like to be briefed on this issue, please call me or have your
staff contact, Steven L. Schaeffer, Assistant Inspector General for Audit, at 410-965-9700.

                                            Sincerely,




                                            JamesG. Ruse, Jr .
                                            Inspector General of Social Security
Enclosure




                                                                                    '-'

Additional letters sent to:


The Honorable Ben Nighthorse Campbell

Chairman, Subcommittee on Treasury, Postal Service,

 and General Government

Committee on Appropriations

Untied States Senate

Washington, D.C. 20510


The Honorable Byron Dorgan

Ranking Minority Member

Subcommittee on Treasury, Postal Service

 and General Government

Committee on Appropriations

United States Senate

Washington, D.C. 20510


The Honorable Steny Hoyer

Ranking Minority Member

Subcommittee on Treasury, Postal Service

 and General Government

Committee on Appropriations

House of Representatives

Washington, D.C. 20515

      CONGRESSIONAL REPORT




THE SOCIAL SECURITY ADMINISTRATION’S

 INTERNET DATA COLLECTION ACTIVITIES





            FEBRUARY 2001

                         BACKGROUND

The Omnibus Consolidated Appropriations Act (Public Law 106-554) requires that

      “Not later than 60 days after the date of enactment of this Act, the Inspector
      General of each department or agency shall submit to Congress a report that
      discloses any activity of the applicable department or agency relating to—

              (1) the collection or review of singular data, or the creation of aggregate
      lists that include personally identifiable information, about individuals who access
      any Internet site of the department or agency; and

            (2) entering into agreements with third parties, including other
      governmental agencies, to collect, review, or obtain aggregate lists or singular
      data containing personally identifiable information relating to any individual’s
      access or viewing habits for governmental and non-governmental Internet sites.”

In addition, the Office of Management and Budget (OMB) issued Memorandum M-99-18
“Privacy Policies on Federal Web Sites”, which directs departments and agencies to
post clear privacy policies on World Wide Web Sites and provides guidance for doing
so. The Privacy Act and OMB Circular A-130, “Management of Federal Information
Resources” requires that Federal agencies must protect an individual’s right to privacy
when they collect personal information. Because of this, Memorandum-99-18 directs
agencies to inform visitors to the site what information the agency collects about
individuals, why the agency collects it, and how the agency will use it. Privacy policies
must be written in a clear and concise manner and clearly labeled and easily accessed
when someone visits a web site.

Further, OMB issued Memorandum M-00-13 “Privacy Policies and Data Collection on
Federal Web Sites,” which discourages the use of “cookies”, small bits of software that
are placed on a web user’s hard drive to track the activities of users to web sites.
Agencies should not use “cookies” at Federal web sites unless, in addition to clear and
conspicuous notice, the following conditions are met: a compelling need to gather the
data on the site, appropriate and publicly disclosed privacy safeguards for handling of
information derived from “cookies,” and personal approval by the head of the agency.
However, a letter from OMB’s Administrator Office of Information and Regulatory Affairs
to the Chief Information Officer of the Department of Commence dated September 5,
2000, exempts session cookies from M-00-13.

The SSA provides access to the general public through its Internet address
www.ssa.gov. Through this Internet address, the public can, for example, access



                                            1

different applications, forms, and information, and apply for retirement benefits, request
a Social Security Statement, and verify benefits.

Upon entering SSA’s Web site, the customer must scroll down to the bottom of the
webpage to access SSA’s “Privacy Policy” (See Appendix) through a hyperlink--a
predefined link from one location to another. When accessed, SSA’s Privacy Policy
informs visitors to its web site what information the Agency collects about individuals,
why the Agency collects it, and how the Agency will use the information. The Policy
does not inform visitors what SSA does with reply e-mails individuals send to provide
feedback on the web site.




                                             2

                 RESULTS OF REVIEW

To comply with the requirements of the Omnibus Consolidated Appropriations Act
(Public Law 106-554), we performed tests to determine: 1) what personal identifiable
information SSA is collecting from users’ of its web site and 2) if SSA has entered into
agreements with third parties to collect, review, or obtain aggregate lists or singular data
containing personally identifiable information relating to any individual’s access or
reviewing habits for governmental and non-governmental Internet sites. We found that
SSA does collect personal identifiable information of its web site users, with the user’s
consent, and in accordance with its Internet Privacy Policy. SSA collects information
such as names, social security numbers, birth dates, e-mail and postal addresses of
users that complete application forms online and through the use of session cookies.
Session cookies are short-lived, used only during the browsing session, and expire
when the user quits the browsing. SSA does not use persistent cookies. Persistent
cookies specify expiration dates, remain stored on the web user’s computer until they
expire, and can be used to track the user’s browsing behavior.

The personal identifiable information collected is only used to process application
requests and to forward updates to frequently asked questions via e-mail to web site
users.

SSA has entered into an agreement with the General Services Administration (GSA) to
collect e-mail addresses, provided upon web site user’s request for electronic
subscriptions to SSA’s E-News, a monthly electronic publication. GSA uses the e-mail
addresses collected to distribute SSA’s E-News. In addition, SSA has entered into an
agreement with RightNow Web, an independent contractor, which collects e-mail
addresses, provided upon web site user’s requests, to allow SSA to provide notification
of updates to frequently asked questions maintained on its web site. SSA does not
have non-disclosure agreements with these third parties. Further SSA does not
disclose to its web site users that the e-mail addresses are collected and maintained by
GSA and RightNow Web as directed by OMB Memorandum M-99-18.




                                             3

                RECOMMENDATIONS

As a result of this most recent review and considering the relevant OMB guidance
referenced in this report, we will recommend:

SSA rewrite its Internet Privacy Policy based on OMB Guidance M-99-18 and its
attachments. Specifically, SSA should:

   •	 adjust the position of its Internet Privacy Policy hyperlink to provide web site
      users’ clear and prompt access.

   •   disclose its relationship with GSA and RightNow Web.

   •	 disclose its policy for maintaining, processing, and disposing of e-mails received
      from web site users.

Finally, SSA should implement nondisclosure agreements with GSA and RightNow
Web.




                                            4

                                    APPENDIX

                             SSA’s Internet Privacy Policy

The privacy of our customers has always been of utmost importance to the Social Security Administration.
In fact our first regulation, published in 1937, was written and published to ensure your privacy. Our
concern for your privacy is no different in the electronic age.

Our Internet Privacy Policy
    •    You do not have to give us personal information to visit our site.
    •	   We collect personally identifiable information (name, e-mail address, Social Security number or
         other unique identifier) only if specifically and knowingly provided by you.
    •	   Personally identifying information you provide will be used only in connection with Social
         Security Online or for such other purposes as are described at the point of collection.
    •	   Information is collected for statistical purposes and SSA sometimes performs analyses of user
         behavior in order to measure customer interest in the various areas of our site. We will disclose
         this information to third parties only in aggregate form.
    •    We do not give, sell or transfer any personal information to a third party.
    •	   We only enable "cookies" for our searchable Frequently Asked Questions (FAQ) database (ssa-
         custhelp.ssa.gov), and then only for the feature that allows you to register to be notified when a
         question is modified. A cookie is a small piece of text information that is sent to your browser --
         along with a Web page -- when you access a Web site. Your browser will only return this cookie
         information to the domain where the cookie originated. No other site can request it.

Why Does SSA Use Cookies?
In the case of our searchable FAQ database, the cookie helps us remember you if you request to be notified
of a change of a question. If you choose to disable cookies, you may still request that you be notified when
a question is changed, but you will be required to enter your e-mail address for every question you wish to
be notified about. The cookie will expire 30 minutes after the last time the cookie was modified. This
expiration time does not delete the cookie from your PC, but it does make it invalid and we can no longer
use that cookie. No other web site can use this cookie under any circumstances. If you wish to delete this
(or any cookie), that is a function of your web browser and you should consult the software's Help files.
